                                          NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS
                                    CLOSEOUT MEMORANDUM

Case Number: A06060025                                                                  Page 1 of 2 .



    The National Institutes of Health (NIH) and NSF funded research that was
    allegedly falsified, so both OIG and the Office of Research Integrity (ORI) were
    notified by a Universityl -that it had conducted an inquiry and concluded an
    investigation was warranted. Specifically, it was alleged the subject2 fabricated'
    data in the course of obtaining her Ph.D. in the laboratory of the PI3 (who w~s also
    her advisor). After the subject left the .PI's lab (and 'the ,university and the country),
    the PI began an informal investigation into allegations the subject fabricated data
    and reported irreproducible
                             , results.' In the course of the PI's informal investigation,.
    he concluded there was sufficient'concern to retract sevEmpublications.
    We accepted the University's investigation report as accurate and complete, and
    concluded it followed reasonable procedures, making an enormous effort to
    accommodate the subject. Although the NSF ~upport was small in comparison to
    NIH's,4 two of the subject's publications (P1 5 and P26) acknowledged partial support
    by an NSF grant. PI was among those papers retracted by the PI, but P2 was not
                                             .
    retracted as none of the data in it were the subject's.
                                                     ,
                                                            7.

    In the course of its investigation, the investigation committee uncovered additional
    fabrication/falsification, as well as instances of questionable research practices. The
    committee refined the allegations to be: .
         1.     fabricated graphical data in her thesis and publications;                          't   .

                                                                                           f   ,
         2.    falsified data supporting analyses reported in her thesis and publications;
               and
         3.    fabricated experimental procedures          a~d prot~cols    reporte!d in her thesis
               and publications.
    Regarding allegation 1, the committee concluded the preponderance of the evidence
    showed the subject intentionally fabricated graphical data in her thesis and in three
    papers.B The committee conclu~ed th~ fabrication of data constitutes a significant

        1 [redacted].
         2[redacted] was a recent graduate ofthe University .
       . 3[redacted].
        4 The University reporteq [redacted] was charged approximately $10,000 for supplies used by the
    PI and subject to conduct research.
        5 [redacted].
        6 [redacted].
        7 The subject's contribution to P2 was an Appendix that consisted of a revision of a previously
    published protocol for one pf the subject's.reacti6ns.
        8 [redacted].                           .
                                           NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS
                                     CLOSEOUT MEMORANDUM

Case Number: A06-25                                                                      Page 20f2



    departure from accepted practices in the research community. None of the
    fabricated data associated with this allegation were in the paper that claimed NSF
    support (PI).
    Regarding allegation 2, the committee concluded a preponderance of evidence
    showed the subject intentionally fabricated and falsified analyses in thesis and in
    two papers. 9 The committee concluded the fabrication/falsification significantly
    departed from accepted community practices. .Again, none of, the fabricated data
    were in PI.                                                    .
    Regarding allegation 3, the committee concluded a preponderance of evidence
    showed the subject did not maintain a research record that meets the standards of
    the com'munity and can not adequately document the procedures and results in her
    theSIS and papers. The committee concluded there was so little evidence in her
    research record to support her descriptions of results and procedures that
    substantial numbers 'of experiments were not performed as described. The
    committee recognized that, opposed to the first two conclusions, this is based on the
    absence of documentation. Nevertheless, the committee found the probability that
    material was lost prior tty se'questration weighed against the evidence for the
    nonexistence justified a preponderance of evidence conclusion of fabrication of
    experimental procedures. 10
    Based on the findings of the committee, Allegation 3 is the only allegation with a
    direct. NSF connection (via P2). That is, the committee concluded there was
    insufficient documentation to adequately support the protocol published in P2, so
    that the protocol, as well as experiments conducted using the protocol were
    questionable. However, there was no direct evidence the protocol was fabricated.
    Given the above limitations, we concluded the evidence of research misconduct was
    best related to NIH funding. We contacted ORI and confirmed it intended to pursue
    a finding of research misconduct against the subject and take action to protect the
    federal government's interest. Accordingly, this case is closed.




        9 [redacted].
        10 The committee noted PHS regulation 42 C,F.R. § 93.106(b)(1) that states the absence of
     research records if! evidence of res~arch misconduct. Many of the records the subject claims exist do
     not. The subject had opportunity to keep such records, but did not.
